<html>
<title> - THE INTERNATIONAL EXPLOITATION OF DRUG WARS AND WHAT WE CAN DO ABOUT IT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
THE INTERNATIONAL EXPLOITATION OF DRUG WARS AND WHAT WE CAN DO ABOUT IT

=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 12, 2011

                               __________

                           Serial No. 112-66

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
70-663                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
ROBERT TURNER, New York<greek-l>As 
    of October 5, 2011 deg.
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

              Subcommittee on Oversight and Investigations

                 DANA ROHRABACHER, California, Chairman
MIKE KELLY, Pennsylvania             RUSS CARNAHAN, Missouri
RON PAUL, Texas                      DAVID CICILLINE, Rhode Island
TED POE, Texas                       KAREN BASS, California
DAVID RIVERA, Florida

                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Eduardo Garcia Valseca, kidnap victim........................     8
Mr. Douglas Farah, senior fellow, International Assessment and 
  Strategy Center................................................    15
Mr. Eric Farnsworth, vice president, Council of the Americas.....    34
Andrew Selee, Ph.D., director, Mexico Institute, Woodrow Wilson 
  Center.........................................................    40

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Eduardo Garcia Valseca: Prepared statement...................    10
Mr. Douglas Farah: Prepared statement............................    19
Mr. Eric Farnsworth: Prepared statement..........................    37
Andrew Selee, Ph.D.: Prepared statement..........................    43

                                APPENDIX

Hearing notice...................................................    66
Hearing minutes..................................................    67
The Honorable Ted Poe, a Representative in Congress from the 
  State of Texas: Washington Post article entitled ``For Kidnap 
  Victim, Tranquility Taken,'' by David Montgomery, dated August 
  12, 2009.......................................................    68


THE INTERNATIONAL EXPLOITATION OF DRUG WARS AND WHAT WE CAN DO ABOUT IT

                              ----------                              


                      WEDNESDAY, OCTOBER 12, 2011

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2200 Rayburn House Office Building, Hon. Dana 
Rohrabacher (chairman of the subcommittee) presiding.
    Mr. Rohrabacher. This hearing of the Oversight and 
Investigations Subcommittee of the House Foreign Affairs 
Committee is called to order.
    I am Congressman Dana Rohrabacher, and I will have a short- 
or a medium-sized opening statement, and opening statements 
from the other members who are here, including the ranking 
member Carnahan. We will then hear from our witnesses, and then 
we will proceed to have questions after the testimony of each 
witness.
    And I would ask--if indeed your testimony can be 
summarized, that would be nice. And then we would proceed to go 
into greater detail during the question and answer part of the 
hearing.
    Today I am reminded of a friend who is not with us. I am 
reminded of Constantine Menges, who worked with me in the White 
House and over the years warned us about many of the dangers 
that threatened the security of the United States of America, 
and the safety of our people. Constantine passed away, and we 
miss him very much.
    We invited his wife Nancy to testify today, because she 
picked up his work and his research, but she was unable to join 
us.
    Yesterday, of course, revealed something that Constantine 
Menges warned us about many years ago, and that was foreign 
involvement in Mexico, and in a way that did indeed threaten 
the security of our country and the safety of our people. 
Yesterday it was revealed that Federal agents had foiled a plot 
by Iranian officials who were seeking to recruit a Mexican drug 
cartel to kill Saudi Arabia's Ambassador to the United States.
    The idea was to bomb a Washington restaurant, and not only 
would the Saudi Ambassador clearly have been killed, but there 
would have been many other victims as well. This case--and I 
quote,

        ``This case illustrates that we live in a world where 
        borders and boundaries are increasingly irrelevant, a 
        world where individuals from one country sought to 
        conspire with a drug trafficking cartel in another 
        country to assassinate a foreign official on United 
        States soil.''

And that was a quote from FBI Director Robert Mueller.
    This kind of linkage between foreign enemies and drug 
traffickers, as well as other domestic criminals, is not new. 
It has been growing for years, and nowhere is that more evident 
than in Mexico, right next door to the United States. And that 
is beginning to have a real and dangerous repercussion here in 
our own country. So today we look at the foreign elements that 
are engaged in Mexico and how that might affect not only the 
people there but also the safety and security of the United 
States.
    Jayne Garcia Valseca is an American citizen who, along with 
her husband Eduardo, was the victim of a brutal abduction in 
Mexico. She was released a few days--after a few days, but he 
was held for 7 long months during which he was tortured and he 
was shot. In 2008, he was recovered alive after the payment of 
a substantial sum, a substantial ransom.
    The likely perpetrators of this crime, which is not, again, 
just against this particular family, but is being experienced 
throughout Mexico and in other countries in Latin America, the 
perpetrators of this crime and the continuing crime against 
these other folks south of the border, were members of the 
Popular Revolutionary Army--that is the EPR--or one of its 
splinter groups.
    The EPR is a Marxist insurgency with ties to FARC--that is, 
the Revolutionary Armed Forces of Colombia--which is both tied 
to the drug trade and backed by anti-American regimes, 
especially that in Venezuela.
    So there is more at work south of our border than just 
crime for profit. There is an international threat to the 
stability and the safety of our entire hemisphere. There is 
also crime and terrorism, of course, being perpetrated for 
political motives, and those political motives are basically 
those people with an anti-American agenda.
    So we have both criminal elements mixing with political 
elements, and taking advantage of international borders in 
order to facilitate their crimes in another country. Yet, 
looking into the Valseca case, I found little cooperation 
between the Mexican and American law enforcement organizations.
    Yesterday we saw evidence that there was cooperation, at 
least when trying to save the life of a Saudi Ambassador. But 
what we need to ask ourselves is: Do we need to have that same 
sort of cooperation in breaking this threat and eliminating 
this threat to the hemisphere that I just described? which is 
the cooperation between criminal elements on a transnational 
basis.
    So, however, in the Valseca case, when we looked into it, 
even though we have spent billions of dollars to fight the drug 
cartels, which was supposedly aimed at establishing a level of 
cooperation between the Mexican Government and Mexican law 
enforcement, and law enforcement in the United States, we did 
not see the level of cooperation and we didn't see the 
cooperation that should have been expected. And we will hear 
more about that later on in the testimony.
    The problem may or may not, however, be solely or even 
primarily with the Mexican Government. As recent hearings by--
with other Foreign Affairs subcommittees, they have shown that 
the United States Government has a myopic focus on drug 
cartels, which has blinded us to larger, more strategic threats 
in Latin America, which may or may not be drug cartels, may be 
criminal cartels that are allied with various ``revolutionary 
movements.''
    Well, that turmoil that these alliances have created, that 
turmoil is moving northward, and we need to understand that.
    And what happened yesterday should underscore that for all 
of us. Perhaps the exposure of the Iranian assassination plot 
by a DEA undercover agent posing as a drug cartel gangster will 
now alert us to the danger that we face, the same sort of 
kidnappings that the Valseca family has gone through, the 
hardship and actually in many cases the death of a loved one, 
in this case the torture of a loved one, and, of course, the 
taking of a large sum of money and destroying the financial 
ability of a family. That happened in Mexico. That could be 
happening here and will be happening here, and we will be 
anxious to hear from Eduardo about the details of that danger.
    Among these threats that we face are forces from outside 
Latin America, including Hezbollah, which is, of course, backed 
by Iran, and a growing Chinese influence working through left 
wing regimes that in turn use ``revolutionary groups'' to 
spread their own power and influence.
    Our first witness, Eduardo, who will put a human face to 
this growing danger will be with us. Then, our other witnesses 
will put Mr. Valseca's experience into a larger strategic 
concept.
    Those witnesses are Douglas Farah, a senior fellow at the 
International Assessment and Strategy Center, where he 
specializes in research, writing, and training on transnational 
criminal organizations and armed groups. He has spent most of 
his career covering conflicts around the world after graduating 
with honors from the University of Kansas with degrees in both 
Latin American studies and journalism.
    In 1985, he was named bureau chief for United Press 
International in El Salvador. And we seem to remember that El 
Salvador was quite a different place then than it is today, and 
hopefully it won't go back to what it was then.
    Covering the civil war there, he distinguished himself, and 
he has also written for The Washington Post, the Boston Globe, 
the U.S. News & World Report, The Financial Times, Foreign 
Policy, and The Journal for International Security Affairs. He 
is author of ``Blood from Stones: The Secret Financial Network 
of Terror,'' written in--published in 2004, and ``Merchant of 
Death: Victor Blout and the New World Order,'' published in 
2007.
    Eric Farnsworth is the vice president of the Council of the 
Americas. He holds an MPA in international relations from 
Princeton's Woodrow Wilson School. He has worked for the 
Department of State and in the White House Office of Special 
Envoy to the Americas from 1995 to '98. Between his government 
service and his current position, he was the managing director 
of Manatt Jones Global Strategies LLC.
    Mr. Farnsworth has authored or co-authored articles in the 
American Interest, Americas Quarterly, Current History, the 
Journal of Democracy, and Latin American Policy.
    And, last, Dr. Andrew Selee is the director of the Mexico 
Institute at the Woodrow Wilson International Center for 
Scholars, with a Ph.D. in policy studies from the University of 
Maryland, a master's degree in Latin American studies from the 
University of California at San Diego. San Diego--that is good. 
There we go. We will talk about that later. [Laughter.]
    Maybe Eduardo can talk to us about the sun, surfing, and 
San Diego, but we will leave that for another occasion--in 
Latin American studies, and from Washington University in St. 
Louis.
    Before joining the Wilson Center, he was an adjunct 
professor at Johns Hopkins University from 2006 to the present, 
professional staff for the House of Representatives right here 
in 1999 and 2000. He is the author of ``Shared Responsibility: 
U.S.-Mexico Policy Options for Confronting Organized Crime,'' 
and he was co-editor of the Wilson Center for last year.
    So we have some very fine witnesses, and I would ask my 
ranking member if he would proceed with his opening statement.
    Mr. Carnahan. Thank you, Mr. Chairman. I will be brief, but 
I want to thank you for putting this hearing together. We 
didn't know just how timely this was going to be when this got 
started, but it certainly is.
    And to our witnesses, thank you for being here, sharing 
your experiences and your expertise with the committee.
    The international drug trade continues to plague countries 
throughout the world, but--and the U.S. is not immune from 
that. My home state of Missouri, right in the very heartland of 
the country, continues to be plagued by a multitude of problems 
associated with meth. It continues to be one of the hardest hit 
states in the country year after year.
    According to the National Drug Intelligence Center's 2010 
national drug threat assessment, methamphetamine availability 
in the U.S. is directly related to methamphetamine production 
trends in Mexico, which is the primary source of 
methamphetamine consumed in the U.S.
    There have been numerous reports of other types of drugs, 
including heroin, cocaine, imported from Latin America that are 
infiltrating our communities. Last year, Missouri saw an 
increase in reported deaths from highly potent, low cost forms 
of heroin. According to the NDIC's 2011 report, increased 
Mexican heroin production, coupled with increased 
transportation of South American heroin, has likely contributed 
to increased heroin availability in some U.S. markets, 
including Missouri.
    We are faced with a difficult problem that clearly has the 
potential for getting even worse. Over the past several years, 
legislation has been enacted to address domestic production and 
consumption of meth and other drugs. However, we also need to 
ensure that we are addressing this problem from all angles.
    Congress has appropriated hundreds of millions of dollars 
to address drug-related problems in Mexico and throughout Latin 
America. We need to ensure these programs are operating 
efficiently and in our best interest here in the U.S.
    I look forward to hearing from our witnesses here today. 
Thank you, and I will yield back.
    Mr. Rohrabacher. Thank you very much. And we now have Judge 
Poe, who adds a great deal to this committee, because he was 
not only a Member of Congress, but also someone who is deeply 
involved with the criminal justice system at the very top level 
in terms of being a judge from Texas. So I am sure you have 
some insights for us, Your Honor.
    Judge Poe. Thank you, Mr. Chairman. The drug war is bloody, 
it is costly, and it is bloody and costly not only in Mexico 
but the United States as well. A thousand people die each month 
in drug dealing violence in Mexico. And the United States, I 
think because Mexico is our neighbor and our partner, we should 
be just as concerned about Mexican nationals being murdered as 
we are about Americans that may be murdered by the drug 
cartels.
    Meanwhile, the United States sends five times as many drug 
dealers to prison as it did 30 years ago, but the worst may be 
yet to come. Terrorists and drug cartels have a mutual enemy--
the United States. Our police and our military do the best to 
stop the drug cartels from smuggling drugs into our country. I 
have been to the Texas-Mexico border many times, but the border 
still is an area that is poorest in certain places, and the 
drug cartels have their way at several places in between the 
legal ports of entry.
    They actually control the turf. The United States doesn't 
control the area. Mexico doesn't control the area, the drug 
cartels control the area, and we have to deal with the reality 
of this truth. We must continue our multi-agency effort to go 
after the terrorists, and everyone in the Treasury Department 
to the Department of Defense is involved in finding these 
folks, weeding them out, tracking them down, and bringing them 
to justice.
    The drug cartels, they are all in it for the money. They 
don't have a political philosophy. They have a philosophy of 
greed, and they will do anything to make money. And it is not 
just in the drug trafficking--kidnappings, extortions, theft, 
anything that will bring money into their criminal enterprise 
they are willing to do, and they are willing to do so at any 
cost, including violence.
    A weak United States is great--a great area--turf, I should 
say, for the terrorists who plan and can carry out greater 
attacks if the United States wasn't watching them. It is 
interesting that a scenario, say, in the group of worldwide 
terrorists joining the drug cartels is something that is not 
out of the question. And we have seen that yesterday.
    Yesterday's scenario was somewhat different, because 
terrorists normally operate not from state sponsorship of 
terrorism but cells that are across borders. And yesterday, if 
the truth comes out that it was the Iranian Government that was 
behind the assassination of the Saudi Ambassador and killing 
Americans in the process, that puts a new light on terrorism.
    So we should deal with Iran, but we should also understand 
that the people involved in this assault, this attack on the 
Saudi Ambassador, on American soil, are willing to work with 
criminal enterprises--the drug cartels--who are glad to do 
anything for a buck.
    It is important that we understand deal with the reality of 
Ahmadinejad and his willingness to destroy the United States, 
Israel, the West, how his mischief is throughout the Middle 
East, and the fingers of Ahmadinejad are in much--are in many 
of the countries that are now having turmoil in the Middle 
East.
    Although Iran was unsuccessful at this time to create as I 
call an assault, an attack on the United States, thanks to the 
good work of law enforcement agents in the United States, and 
apparently in Mexico as well, that doesn't mean they won't try 
again. But the narco-terrorists' proven ability to come across 
to the United States at will make them an attractive partner 
for Iranian Government terrorists. This is an example of how 
the drug cartels in the poorest border of the United States 
they cross daily are a threat to the United States.
    I personally think that we should specifically make the 
drug cartels of foreign terrorist organizations, specifically 
the Zetas, but we have to be realistic. We did, thanks to our 
law enforcement, were able to thwart this, but the will to 
commit crimes against the United States by terrorist states, 
such as Iran, working with the drug cartels, has not 
diminished.
    I think the Iranians are only going to continue to keep 
trying, especially if there is no consequences for a failed 
attempt on the United States. If this action by the terrorist 
from Tehran would have been successful, it would have been 
interesting to see what the United States would do. But this is 
still a serious threat, and it remains so, and should not be 
diminished because we were able to stop this attack on the 
United States.
    So we need to understand what resources the United States 
has that they are not using against their drug cartels. I think 
we ought to treat them in a more serious--more seriously than 
we really are--have been treating them for the last numerous 
years.
    And just a few weeks ago before this very subcommittee we 
heard testimony arguing that it is the drug cartels, and not 
Islamic terrorist groups, that are the number one threat to the 
United States. I repeat: It is the drug cartels, not Islamic 
terrorist groups, that are the number one threat to this 
nation. We must deal with that fact.
    It really doesn't make a difference who is number one or 
number two. They are both bad, and they are a joint terrorist 
criminal enterprise that are willing to work together. They are 
the new axis powers of evil--the Iranian terrorists working 
with the drug cartels. And you gentlemen have the answers, and 
we are looking forward to hearing from you.
    Mr. Rohrabacher. Thank you very much, Your Honor.
    And I understand Ms. Bass has no opening statement, or 
would you like to say----
    Ms. Bass. Let me just very briefly----
    Mr. Rohrabacher. Congresswoman Bass, you are welcome to 
take as much time as you would like.
    Ms. Bass. Oh, thank you. I will be very brief, because I am 
very interested in the witnesses. And, you know, as I think 
about what is going on right now in Mexico, and then, of 
course, spilling over into our borders, I recall the whole drug 
wars that were going on in the early '80s in Colombia and in 
South America.
    And the level of violence that we are seeing in Mexico 
today just doesn't seem to be compared to what happened before. 
And maybe you will address that. Maybe I just don't recall, but 
this is just a level of violence to me that almost seems, you 
know, in comparison, and the viciousness in comparison to what 
we saw in Baghdad, you know, a couple of years ago.
    One thing, though, that I was not aware of that the 
chairman was speaking about is some of the political 
relationships. So I was not aware of that in terms of 
connections with the Chavez regime or other regimes in South 
America, and so perhaps you can talk about that. I do remember 
those relationships in South America. I don't remember--I am 
not aware of those relationships in Mexico.
    So hopefully through your testimony you can address some of 
the comparisons with South America and also the political 
relationships.
    Thank you.
    Mr. Rohrabacher. Thank you very much. That was a very 
thoughtful opening statement.
    Just one note from the chairman. I grew up in Southern 
California, and which means that I have a very special place in 
my heart for Mexico. And I lived with a Mexican family for 3 
months when I was younger. I spent a lot of time on the beach 
in Mexico and up in the hills drinking Muscao with the 
caballeros and all that goes along with the beach scene in 
California.
    And I will have to tell you that when I see the turmoil and 
the agony that is going on south of the border now it brings--
and it should bring tears to the eyes of anyone who cares for 
these people. They are wonderful people. Mexican people have 
always been wonderful to my family and wonderful to all of the 
Americans that I know.
    And to see them going through the turmoil and the agony 
where tens of thousands of their people have been murdered--
tens of thousands--there is a cloud of oppression over these 
people's heads every minute of the day realizing that these 
gangsters and these monsters are around them, and that their 
family is in grave jeopardy.
    We need to make sure that we understand this isn't just 
statistics, and it is not just the people of the United States, 
but it is those wonderful people in Mexico. But if we don't do 
our best to help and solve that problem, it will impact on us, 
and the danger and the turmoil is heading in our direction. 
What happened yesterday, or what was exposed yesterday, with a 
plot by a foreign government, in this case the Iranians, to try 
to hire these gangsters from Mexico in order to commit a 
violent crime in the United States, this is just the tip of the 
iceberg.
    And our first witness today, Eduardo Garcia Valseca, will 
put a human face to the suffering that is going on and the 
personal suffering that it caused one family. But we have to 
multiply that by millions of families in Mexico who are so 
suffering and so much in danger and are crying out for us to 
join with them to solve this problem and eliminate the danger 
from their lives and also from our future, if that is the way 
it is.
    Eduardo, would you proceed and give us your story, and then 
I would like to ask Jayne, his wife, to join us during the 
question and answer session, if she has something to add to 
that testimony. Eduardo, you may proceed.

     STATEMENT OF MR. EDUARDO GARCIA VALSECA, KIDNAP VICTIM

    Mr. Valseca. Thank you, Mr. Chairman, and honorable 
representatives. Thank you for inviting me to share my 
testimony at this very important and timely hearing.
    I am a Mexican citizen, now a resident of the United States 
of America. On June 13, 2007, my American wife and I were 
kidnapped from our ranch in central Mexico. My wife was 
released, but I was held for ransom for 7\1/2\ months. I was 
held in a small box and tortured brutally, both physically and 
mentally, barely surviving the ordeal.
    My kidnappers, after beating me and even shooting me twice, 
sent photos to my wife to pressure her into paying a multi-
million dollar ransom. This was an amount we didn't have. My 
wife requested that the FBI assist in the investigation of our 
case, but the Mexican authorities denied that request. Although 
my wife and I have cooperated completely with the Mexican 
Federal authorities, there has never been a proper 
investigation.
    There have been thousands of kidnaps in Mexico in the past 
5 years. In many of these cases, arrests have been made, but 
not in our case. There are only two reasons why the current 
Mexican administration would turn a blind eye to our 
kidnappers--because they choose to continue their long-standing 
position of tolerance of criminal terrorist groups like this, 
or because they are members of the Mexican Federal police 
implicated in our kidnapping.
    According to the members of the Federal police, our 
kidnappers are members of the Mexican Revolutionary Army, 
terrorists with international ties. They have committed more 
than 200 kidnappings in the past 20 years, raising millions and 
millions of dollars. In almost all of these cases, there has 
been absolutely impunity.
    Since the appearance of these armed revolutionary groups in 
Mexico, there has been a position of tolerance by the Mexican 
Government. Their acts of terror, attacks with explosives, 
kidnappings, have gone largely unpunished. It is also possible 
that the criminals who kidnapped me are somehow closely related 
to the Federal authorities. Police also mimic the MO of these 
revolutionaries knowing they will then go unpunished.
    My wife is not the only American to have been victimized by 
this group of terrorists. This group continues to kidnap, 
victimizing, even a former Mexican Senator and Presidential 
candidate. They currently have yet another victim.
    The Federal authorities told my wife the following, that 
this terrorist revolutionary army with international links 
numbering in the thousands, with cells in every state, they 
have attacked several Sears, Citibanks, Banamex locations, and 
Pemex pipelines with the use of explosives.
    This group has already infiltrated the Mexican political 
system with members holding political office in many states. 
They have ties to the Venezuela Government, former Cuban 
agents, former ETA members from Spain, who trained them in use 
of explosives. They have ties to criminal organizations in 
other Latin American countries. It is suspected that there are 
members who are American citizens.
    The members of these terrorist organizations have Marxist 
tendencies and are driven by an ideology with a hatred toward 
the United States and all capitalists.
    It should be noted that as soon as my wife and I went 
public with our story, the Mexican authorities denied any 
mention of the event. Having the world know that they have been 
tolerating acts of terror targeting Americans and American 
companies, among others, could have serious implications.
    After all that I have experienced and learned since my 
kidnapping, I beg that you increase the U.S. involvement in 
Mexico. The Mexican Government, military, and police are 
infected with corruption. Any official statistics of crime 
coming from Mexico are completely unreliable and manipulated. 
The vast majority of criminal acts, including kidnappings, are 
never even reported.
    Please investigate this armed revolutionary terrorist group 
with known international links before they have a chance to 
damage on a bigger scale.
    I am very sad to say that Mexico, your neighbor, and the 
country of my birth, has become an international criminal 
paradise.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Valseca follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you for your testimony, Eduardo. I 
am just--before we go to the other witnesses, let me just ask 
you, when you were kidnapped, how much did you weigh? And how 
much did you weigh after being kept in that box, that stone 
box?
    Mr. Valseca. My regular weight, sir, is about 160 pounds, 
and when I came out of the box I was barely around 82, 83 
pounds. And they destroyed my left leg, they shot me with a .45 
pistol, and they made a huge damage into my liver that I am 
still suffering from it. They broke my ribs, they shot me also 
on the arm. They thought that I was lying.
    But the interesting thing about all of this, sir, is that 
the authorities in my country, they have absolutely no interest 
in investigating it. They only thing they asked me, the 
federal--the chief of the Federal police flew his private jet 
to Austin, Texas, to tell me to be quiet. That is all I have 
heard from them.
    They have never, including Senerro that was kidnapped, they 
have never asked me to talk to him or for him to talk to me.
    Mr. Rohrabacher. Well, Eduardo, we will go into that during 
the question and answer period. But I thought it would be 
important for us all to understand, as we are talking about 
this ``problem or challenge'' that we face, we are talking 
about human beings who are suffering, our neighbors. We are 
talking about our next-door neighbors, and that is why we 
should look at the people of Mexico, our wonderful people who 
live next door, and they are going through agonies like this.
    And so behind the statistics, and behind the plans that our 
Government has, are some real-life suffering of human beings 
who deserve our attention.
    And we will go on now to our other witnesses.
    Mr. Farah?

 STATEMENT OF MR. DOUGLAS FARAH, SENIOR FELLOW, INTERNATIONAL 
                 ASSESSMENT AND STRATEGY CENTER

    Mr. Farah. Thank you, Mr. Chairman, and members of the 
committee, for the opportunity to testify today on this 
important topic. As the chairman noted, yesterday the Justice 
Department announced that it stopped the plot by the Iranian 
Government using special Quds force operatives to assassinate 
the Saudi Ambassador in the United States, and carry out other 
attacks on U.S. soil.
    I have been looking at this relationship between 
transnational organized crime and terrorist organizations for 
some time, and what makes this plot so different is the 
allegation that the Quds force operative was seeking to hire an 
assassin from the Zetas, the notorious Mexican drug trafficking 
organization, to carry out that hit.
    This is significant for many reasons. As my written 
testimony describes, there are multiple alliances forming 
across Latin America among transnational criminal 
organizations, drug trafficking structures, terrorist groups in 
criminalized states, that present a significant and perhaps 
unprecedented challenge to the U.S. national security from that 
region.
    The allegation that Iran, a criminalized state which 
sponsors Hezbollah, one of the world's premier terrorist 
organizations, which is dealing with the Zetas, a non-state 
drug trafficking organization that controls key access points 
to cross the U.S. border regularly, is surely a perfect storm.
    This possibility--a hostile state using special forces and 
proxy agents to engage criminal organizations for operations 
inside the United States--has long been downplayed and 
sometimes ridiculed by policymakers, yet the signs of this type 
of gathering storm have been evident for some time, including 
possible collaboration on the transportation of WMD components.
    The choice of Mexico as the recruitment stage for these 
activities is no surprise, given its proximity to the United 
States and attention to other matters the government there is 
engaged in. Other designated terrorist organizations, such as 
the FARC in Colombia and its multiple front groups and allies, 
in outlined in my written testimony, and the Basque 
separatists, ETA organizations, and others, have also set up 
shop in Mexico.
    Among the cases that indicate the different threats that 
run through Mexico are those of Jameer Nasr, arrested in 
Tijuana, Mexico, in July 2010 and reportedly charged with 
setting up the Hezbollah network in Mexico, a concern later 
validated by the Tucson, Arizona police.
    In the case of Jamal Youssef, who according to a 2009 
indictment in the U.S. Southern District of New York was a 
former Syrian military officer arrested in Honduras, seeking to 
sell weapons to the FARC, weapons he claimed that came from 
Hezbollah and were provided by a relative who was residing in 
Mexico.
    There is no evidence that I am aware of showing that the 
Mexican Government supports these activities of extra-regional 
actors or condones them. In the case of Mr. Nasr, the Mexican 
authorities had him under surveillance and arrested him, 
showing little tolerance for the establishment of this type of 
foreign terrorist entity on its soil. They also appear to have 
helped in yesterday's case.
    Rather, the government struggles with a host of intractable 
problems, and these activities and alliances are largely under 
the radar and, given the scarce resources, not a priority. But 
Mexican DTOs--the drug trafficking organizations, both in the 
United States and Mexico, are often analyzed as entities 
operating only in Mexico or geographically contiguous regions 
that directly affect their specific cocaine-related endeavors.
    Yet these groups, particularly the Sinaloa cartel, are part 
of a large and expanding web of alliances that now have 
operational access to Mexico through the drug trafficking and 
other transnational criminal activities. It includes not only 
designated terrorist entities and drug trafficking 
organizations, but state actors including state sponsors of 
terrorism.
    Mexican drug trafficking organizations are key gatekeepers 
along an extensive network of highly adaptable criminal 
pipelines, both organizational and geographical in dimension. 
These pipelines ultimately breached the southern border of the 
United States thousands of times a day.
    The established presence of Hezbollah in Latin America, a 
designated terrorist entity that operates as a proxy for Iran, 
is an important factor and one that raises the possibility of 
an exchange of knowledge, technology, and lessons learned with 
the FARC as well as Mexican drug trafficking organizations.
    As the chairman noted, China's growing presence, including 
control of four key ports in Mexico, through which extensive 
movement of precursor chemicals and significant money 
laundering operations occur, is another significant factor in 
the transnational criminal activity in Mexico.
    Mexico is a key part of China's comprehensive strategy to 
expand its influence throughout Latin America and the western 
hemisphere, in direct challenge to America's vital interest in 
long-held preeminence in the region. This strategy is already 
unfolding across a multi-dimensional framework in political, 
ideological, military, economic, and other realms.
    These relationships among criminalized states and non-state 
proxies have real and important consequences within and beyond 
drug trafficking. There is growing concern that Hezbollah is 
providing technology for the increasingly sophisticated narco 
tunnels now being found along the U.S.-Mexican border, which 
strongly resemble the types Hezbollah uses in Lebanon.
    Numerous former intelligence and law enforcement officials 
have publicly discussed the appearance in recent years of 
arrested gang members entering the United States with Farsi 
tattoos and other items that could indicate Hezbollah 
influence. Within this context, it is interesting to note 
Iran's concerted effort to push into Mexico and solidify 
government-to-government ties and trade alliances.
    Since 2009, several senior level Iranian delegations have 
visited Mexico, the first such envoys since the Shah was 
overthrown in 1979. The Iranian Ambassador in Mexico has taken 
an unusually activist role, including being the lead public 
Iranian voice in accusing the CIA of assassinating Neda, the 
pro-democracy activist gunned down by Iranian security forces 
during the anti-regime demonstrations.
    As a joint DHS-State Department symposium concluded 
recently, the confluence of illicit networks and corruption in 
an enabling environment can facilitate not only the movement of 
drugs, arms, stolen, and pirated goods, and traffic persons, 
but also the smuggling of terrorist weapons of mass 
destruction, WMD materials, and other dangerous weapons and 
technologies that threaten global security.
    The Mexican drug trafficking organizations are well-armed 
violent structures already at war with the state and are at the 
nexus of a variety of threats from facilitating the possible 
transport of WMD components to allies with terrorist groups and 
hostile nation states who wish to harm our homeland. The reason 
is obvious: If harming the United States is the ultimate goal, 
the positioning of hostile actors and structures as close as 
possible is imperative.
    While Mexican drug trafficking organizations pose a 
significant threat in and of themselves, they are part of a 
much broader network of entities that raise the threat level 
exponentially.
    In answer to Congresswoman Bass' earlier comments--and it 
is in my written testimony--I think the clearest indication of 
the alliances that are developing there is this book Guerra 
Periferica y el Islam Revolucionario, Asymmetrical Warfare and 
Revolutionary Islam, which is a book written by a Spanish 
ideologue whose basic premise is that weapons of mass 
destruction are a viable, legitimate use against the United 
States to destroy the empire.
    This was adopted as official military doctrine by the 
Government of Venezuela after--with its close ties with Iran, 
and it has been published as a pocket-sized book for all of the 
officer's corps to carry around with them, memorize, and study. 
It has also been transmitted to the Bolivian military. The 
Government of Ecuador has so far refused to do that.
    And the U.S. Government is now translating it. They were 
unaware of this book for a considerable period of time, and 
they are now I think aware of it.
    On the issue of violence, I think if you look at the period 
of Medellin----
    Mr. Rohrabacher. I tell you what we will do.
    Mr. Farah. I am sorry.
    Mr. Rohrabacher. During the question and answer period, we 
will have--go right ahead and finish that point.
    Mr. Farah. I apologize. The homicide rate in Medellin 
during the worst of the time there--1988, '89, '90--was about 
400 people per 100,000. It has never reached that level in 
Mexico. I think Andrew may know better than me on that, but it 
has never reached that level.
    The average around the world is 10. The U.S. homicide rate 
is five per 100,000, and Canada is one per 100,000. So 400 is 
extraordinary.
    [The prepared statement of Mr. Farah follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Actually, you will find that as chairman I 
try to be as generous as I can with--we do have to move on, but 
I actually made a little statement, too, so thank you for 
letting me do that.
    Mr. Farnsworth, you may proceed.

 STATEMENT OF MR. ERIC FARNSWORTH, VICE PRESIDENT, COUNCIL OF 
                          THE AMERICAS

    Mr. Farnsworth. Well, thank you, Mr. Chairman, and good 
morning to you and members of the subcommittee. It is a real 
privilege to have the opportunity to appear before you.
    Yesterday's dramatic news notwithstanding, Latin America is 
a region transformed from Cold War days when politically 
motivated violence led to untold pain and suffering across the 
hemisphere. Out of that difficult period, however, came a 
hemispheric commitment to democracy, a commitment that was 
formalized exactly 10 years ago last month with the signing of 
the Inter-American Democratic Charter in Lima, Peru.
    The hemispheric commitment to democracy is a recognition 
that strong democracies with strong institutions provide the 
fairest means of governance. As a result, they offer the best 
inoculation to Latin American societies against the scourge of 
political violence, much of which flared in previous decades as 
a result of the perception that authoritarian political and 
economic systems were exploitative and unfair.
    At the same time, however, nations where democratic 
institutions and state control are weak or threatened can 
become incubators for criminal activities--and we have heard 
already about that this morning--creating permissive 
environments that can be exploited by those intent on pursuing 
extra legal activities.
    An example of such a scenario is the tri-border region of 
South America, a somewhat lawless region joining Argentina, 
Brazil, and Paraguay, that has been linked to fund raising for 
extra legal global actors, including Hezbollah. Criminal 
enterprises, primarily smuggling operations, provide ill-gotten 
gains that can then be used to fund terrorist activities 
abroad.
    Elsewhere in Latin America, the situation is less clear cut 
perhaps. For many years, the Government of Colombia, for 
example, exercised only cursory control, if any, over much of 
the country. The lack of state control was exploited by the 
FARC, the ELN, and other guerrilla movements, allowing them the 
freedom to build contacts with other extra-regional 
revolutionary groups, including Spain's ETA, links with Cuban 
intelligence and others.
    As the Government of Colombia has effectively taken the 
fight to the guerrillas over the past decade, political 
violence has been dramatically reduced and the guerrillas have 
increasingly sought safe haven in neighboring countries. They 
have also turned to criminal enterprises, making common cause 
with drug traffickers as a means of survival.
    In the case of Colombia, links between the two came in 
later years as the political insurgency became effectively 
degraded by the Government of Colombia. There is no doubt that 
permissive environments can attract global mischief-makers and 
that the drug trade, by undermining the effectiveness of, and 
public confidence in, democratic institutions can lead to such 
permissive environments.
    Central America is perhaps the best example in this regard. 
The region has become one of the most dangerous on earth--
according to a recent Senate report, more violent even than 
Mexico. After a generation of bipartisan efforts to midwife 
democracy to Central America--and, Mr. Chairman, you were a 
leading voice in that effort--the institutions of these mostly 
young, fragile democracies are being hollowed out, corrupted by 
the drug traffickers and their allies.
    Impunity is rampant, and the police and security forces in 
several countries have been penetrated by the drug gangs. 
Violence is a daily reality for far too many citizens of the 
Central American region. We should be working with these 
nations, with purpose and resolve, to ensure that the 
inclination to politically motivated violence does not arise.
    So, too, with Mexico. As in Central America, at this point 
we do not see a pattern of politically motivated violence 
engendered by the cartels. Rather, we see the cartels fighting 
each other and the Mexican security forces to maintain control 
over lucrative drug transit corridors into the United States.
    The cartels prefer either a weak state or a state that 
turns a blind eye to their activities. They do not appear to 
want to overthrow the state at this point, nor are they using 
violence to support one political party or political actor over 
another.
    Nonetheless, their activities are undermining the 
institutions of the state, both in Mexico and in neighboring 
countries, particularly Guatemala, which has become a safe 
cross-border sanctuary for Mexican drug cartels. As well, 
certain drug trafficking groups in Mexico, in particular the 
Zetas, have served as guns for hire with others involved in the 
drugs trade.
    And to the extent that they are now also willing to offer 
their services and firepower, not just to other drug 
traffickers but also to outside groups, including the al Quds 
force, as has been alleged, this would be a new development and 
a cause for concern. With this in mind, it is vital that we 
work in tandem with democratically elected leaders across the 
region to address these issues to help ensure that criminal 
activities do not blossom into a politically motivated effort.
    This includes, of course, an emphasis on vetting and 
professionalization of police and security forces and a focus 
on the entire administration of justice. I would argue, in 
fact, that such cooperation with Mexico was, in part, 
responsible for our success in taking down yesterday's alleged 
plot.
    At the same time, of course, we can do a better job in this 
country to reduce the demand for drugs, which is driving much 
of the insecurity impacting the region. I would like to see a 
renewed public campaign, for example, including new media, 
which potentially would reach more of the target audience that 
defines drugs, much as the way diamonds, for example, have been 
defined out of Africa in the blood diamonds trade. I think 
there is no reason, for example, why we can't link drugs to 
conflict and death in Mexico and Central America.
    We can also think creatively about ways to support our 
democratic allies in our common fight by considering the 
transfer of excess equipment, as appropriate, from the 
downsizing effort in Iraq that is now underway. In particular, 
mobility and communications equipment would be useful for a 
region with vast unpoliced and underresourced areas.
    At the same time, I believe we also must do a better job 
working to prevent the supply of firepower into the region. 
Otherwise, criminals will begin to--will continue to have 
access to such firepower that can challenge the ability of the 
state to control its own territory, which is one of the key 
indicators of a failing state and the means by which 
politically motivated ends can begin to take root.
    For the most part, drug traffickers and others involved in 
illegal activities prefer weak states which allow them to 
conduct their affair unmolested. They don't seek to overthrow 
states. Nonetheless, by their destabilizing presence and 
ability to generate large sums of untraceable cash resources, 
they do have the potential of supporting such groups as in 
Colombia, to the extent such groups may seek to find common 
cause.
    And as we saw just yesterday, they also have the potential 
to be used as hired muscle by those with extra-regional 
connections. And in this regard, I believe the best antidote 
remains for cooperation with Latin America nations as they 
consolidate and build upon the democratic gains of the past.
    So, Mr. Chairman, I want to thank you again for the 
opportunity to appear before you, and I look forward to your 
questions.
    [The prepared statement of Mr. Farnsworth follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Thank you very much.
    Dr. Selee.

 STATEMENT OF ANDREW SELEE, PH.D., DIRECTOR, MEXICO INSTITUTE, 
                     WOODROW WILSON CENTER

    Mr. Selee. Thank you, Mr. Chairman. Thank you to the 
ranking member. Thanks for the opportunity to testify.
    I also want to recognize Chair Ros-Lehtinen of the 
committee, and the ranking member Berman, who have a great 
commitment to the relationship with Mexico and Latin America. 
The chairwoman is actually hosting a dinner on U.S.-Mexico 
relations tonight.
    And I especially want to acknowledge Eduardo Garcia Valseca 
and Jayne for their courage in coming here to testify. They 
have gone through, you know, one of the most horrible 
experiences that anyone could imagine, and to have the courage 
to come here--and they have also been in the news talking about 
this, trying to make people aware of what has gone on, and so 
that takes enormous, enormous courage.
    You know, this hearing couldn't be more timely, given the 
events yesterday, what we found out yesterday, and I think it 
is important to know this is the first attempt we know of of 
trying to link terrorism and the cartels, the first we know of, 
and it failed.
    And I think there are two lessons here that are important 
to take away. One is that we need to be vigilant--the reason 
for this hearing--it is important to keep this on our radar 
screen. It is important for the U.S. and Mexican Governments to 
be talking about this, as we have been, and perhaps to put it 
up a notch in our conversations, our bilateral conversations.
    And, secondly, the cooperation worked in this case. This is 
a case where there was a common interest. The U.S. Government 
is monitoring terrorist attacks on U.S. soil, and Mexico is 
also monitoring it, because the Mexican economy--you know, not 
only are they trying to be good neighbors, but they are also 
concerned about what would happen if there ever were a 
terrorist attack from Mexico. Hugely in Mexico's interest.
    The borders and boundaries are irrelevant, as the chairman 
said earlier, for crime. But states remain incredibly relevant, 
and cooperation among states, for trying to disrupt those 
criminal networks. And so to the extent that we can continue to 
work with our partners in the region, I think this is 
fundamental for trying to interrupt these criminal networks.
    Let me say that Mexico has seen a sharp rise in crime over 
the past 3 years. Some of this represents a rise in homicides 
because of seven criminal organizations that have been fighting 
with each other, often called ``cartels.'' They primarily get 
their income from illegal narcotics smuggling into the United 
States, but some of the rising crime is by other groups--
kidnapping rings, smaller smuggling organizations, extortion 
gangs and local thugs, who proliferated in the environment of 
violence created by the large groups.
    And what we have seen is an increase in these smaller 
groups out there. Sometimes they are supported by the large 
cartels. It is their folks who are allowed to do this. And 
sometimes they are simply freestanding folks who are taking 
advantage of the perceived climate of impunity.
    There is little, if any, real evidence yet of foreign 
influence in these criminal enterprises, large or small, except 
of course that the largest and best organized groups are 
transnational organizations and operate in multiple countries. 
Cocaine appears to represent about half of the illegal 
narcotics income of the large Mexican trafficking 
organizations, according to a recent Rand study.
    This means that these groups work closely with suppliers in 
Colombia, transshipment specialists in Central America, and of 
course U.S. gangs, mafia organizations, and other distributors 
who distribute the narcotics in the United States. And there 
are $6-$9 billion in illegal drug sales, according to the Rand 
study, that come back from U.S. consumers of illegal narcotics 
back to Mexico every year.
    As they say, we have seen the enemy, and it is us in this 
case. I mean, this is $6-$9 billion a year. This is the Rand 
study. The U.S. Government manages slightly higher numbers, but 
this is based on a market study of the narcotics.
    There are also--and it is worth saying--Mexican-led 
immigrant smuggling rings that specialize in non-Mexicans. The 
Zetas have gotten into this business, Central Americans, 
Cubans, South Americans, Chinese, Iraqis, and others. And there 
is, of course, in addition to the smaller kidnapping rings that 
do most of the kidnapping, there is the group that Eduardo was 
talking about, which is an excision from the EPR, from the 
Popular Revolutionary Army, which has done a number of 
kidnappings and continues to operate with impunity in Mexico.
    This is a Mexican-run organization, but obviously they do 
have ties abroad, much as the smugglers. I mean, Mexican-run 
organizations, but with ties abroad.
    There is no evidence to date of operational ties between 
terrorist organizations, I say again, and the Mexican cartels 
or the Mexican turrett has been used successfully by terrorist 
organizations. However, we should be aware that in the 
underworld of illegal enterprises these groups may well be in 
contact with each other. It would be surprising if they 
weren't.
    And if the U.S. and Mexican Governments, in fact, in 
monitoring these links--and it is probably one of the greatest 
unheralded successes of cooperation to date, and one we may 
want to consider upping a notch in terms of our cooperation.
    And let me finish by pointing to four challenges. They are 
developed more in the written remarks, but I just point them 
out very quickly. There are four things that we could be doing 
better in our relationship with Mexico to deal with organized 
crime.
    First is developing a strategic plan for intelligence 
sharing that goes after the most violent groups first, and that 
look at the kind of violence that particularly affects citizens 
like Eduardo and Jayne and others, and the kind of violence 
that specifically is affecting civilians. And there are certain 
kinds of violence that are worse than others.
    I mean, it is all bad, but there are certain things that 
really affect the life of people who are outside the business. 
And we can help the Mexican authorities do this, if the Mexican 
authorities are open to it, which I think they are. I think it 
is something that they want to be doing.
    Secondly, we can do a better job of mapping the trafficking 
organizations in the United States. We don't really have a 
critical mapping on how they organize once they get across the 
border. They try to keep their heads down in the United States. 
They are much less violent on this side of the border, much, 
much less violent. So we could do a great--a much better job of 
that, and also following their money trail in the United 
States, again, the $6-$9 billion that flows southward to Mexico 
every year.
    Third, we could do much more to support reforms of the 
police, prosecutor, and courts. One of the things that would be 
particularly helpful, by the way, is--and we have put money in 
there, if I am not mistaken--is a police database that actually 
fingerprints, does retina scan--does fingerprint, voice 
recording, and retina scan of all police in the country.
    It is something that partially exists, but not completely, 
because that way when police do collaborate with organized 
crime groups the Mexican Government can identify them, which 
right now is very hard to do. They are working on it, but a lot 
more to do. There is a lot more we can do to protect 
journalists, civic leaders, and elected officials, who are 
standing up and being courageous and denouncing violence, and a 
lot more we can do to invest in communities that are under 
stress.
    And, finally--we can talk about this later if you'd like--
there is a lot more we can do on this side in terms of curbing 
demand of narcotics, which is a long-term challenge. But we 
actually do know some of the things that work, and it would be 
good to actually be investing in some of the things that work 
to bring down demand. That is a domestic challenge for us as a 
country, and this is a public health challenge for us, but it 
would do a great deal to actually help our neighbors to the 
south as well.
    Thank you.
    [The prepared statement of Mr. Selee follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Rohrabacher. Well, thank you all very much for your 
testimony today. And I will begin the question session here, 
and I would like to start out with Eduardo. Eduardo, you 
believe that your kidnappers were not just Mexican nationals 
from the city next door who have gotten out of hand. This isn't 
a situation, as far as you're concerned, with just domestic--
you know, a domestic problem for Mexico.
    Why do you believe that there--was there some indication 
that you have that either while you were being held or in your 
investigation into the crime against you since then, that would 
lead you to believe that there was a foreign element involved 
in this other than Mexico? I would ask your wife Jayne to join 
us, please.
    Mr. Valseca. Thank you, Mr. Chairman. When I was held in 
that box, one day I got just overwhelmed with the abuse, and I 
told the guy who made me call him ``el jefe'' that to go ahead 
and kill me. And the first words that I can read on his lips, 
because he was very careful not to have a voice, so I wouldn't 
recognize his voice, were English words. he said----
    Mr. Rohrabacher. English words.
    Mr. Valseca. English words. That he got automatically, in 
the moment that I told him, ``Go ahead and kill me,'' he got 
very, very vicious and mean. And he went and grabbed a gun and 
he put a gun in my mouth, and he told me, not in loud words, 
but he called me son of a bitch and mother fucker and all kinds 
of things without speaking loud.
    When I came out, sir, and I had the opportunity to talk to 
Ron Lavender--this is an American who was kidnapped in Acapulco 
from the same group--I had--my wife and I had a chance to talk 
to him for about 2\1/2\ hours privately.
    And he--I said to him that--explains what I am just sharing 
with you, and he said, ``I am certain he is from California. He 
is from your state.'' And he said, ``I am certain that at least 
three or four members of this group, they speak perfect English 
from the east coast of United States.'' So this is not 
something that was out of my imagination. It is something that 
I proved with another victim, and we are certain that they are 
English speaking. And so that is why we know that they are 
international groups.
    My wife just reminded me that one of the things, you know, 
that also tells you--Mexicans have a large lunch and a very 
light dinner. That is cultural. In the United States, it is the 
other way around. You have a very short--a very short time for 
lunch and then you have a large dinner when you get home.
    Well, the way they treat me was always a very small lunch 
in terms of the--it was just a salad, which in the Mexican diet 
people don't eat salads, you know? So it was always a salad, 
and the dinner was always bigger portion. So that is very, very 
American. So those things, but the most important thing is Ron 
Lavender.
    Mr. Rohrabacher. Okay. And, Jayne, if you could move your 
microphone up there. So you know that those--so those people 
who were involved in this kidnapping--and we are talking 
about--what level of kidnapping is taking place now? How many 
families are going through what you went through in Mexico?
    Ms. Valseca. Well, it is important to understand that the 
EPR was sort of the parent group, if you will, and it has 
splintered through the years, over the past, say, 20 years. So 
now you have many different cells that share a similar ideology 
and way of working. But all of these cells, and specifically 
the one that had Eduardo, they demand multi-million dollar 
ransoms. They rarely accept less than $1 million. As a matter 
of fact, in many cases they have received $40-, $35-, $25 
million in one ransom payment.
    They typically--this cell alone typically kidnaps two 
victims per year, and they hold them for a minimum of 6 months. 
One of the victims--as a matter of fact, the previous victim, 
the one before Eduardo was kidnapped, was held for almost 2 
years. And they collected a multi-million dollar ransom.
    Mr. Rohrabacher. And you are convinced that these are, 
number one, not Mexicans, or at least----
    Ms. Valseca. Not exclusively Mexicans.
    Mr. Rohrabacher [continuing]. At least the leadership is 
not Mexican. And what makes you think that there is a 
connection of--number one, these are--they may well be 
Americans, as you have just testified, or they--there was some 
indication that they may have been permitted to operate out of 
another country rather than the United States--Venezuela or 
Cuba or such? Do you have information about that?
    Ms. Valseca. Yes. Well, that information came directly from 
the Federal authorities in Mexico, and was expressed to me in 
private meetings. And this goes all the way to Genaro Garcia 
Luna himself. They have probably regretted telling me those 
things at this point. They never imagined we would go public 
with our story.
    But what was expressed to me very clearly by all of these 
people was that this was a terrorist group with international 
links. And I asked which countries those links were to, and 
they didn't mention them all, but they did say that there were 
suspected former Cuban agents, links to the Venezuelan 
Government, links to the FARC, links to the United States' 
members that were suspected to be from the United States, and 
it went on from there.
    ETA from Spain, they--and I asked why that would be, and 
they said that they were members of ETA who had taken refuge in 
Mexico, hiding, and that they had joined forces with this group 
and others like them and shared their information on how to 
build explosives, among other things.
    Mr. Rohrabacher. I am going to let Mr. Carnahan have his 
shot, and then we are going to do a second round as well after 
Judge Poe also has his shot. But let me just note, what we are 
talking about here now is there are criminals in every country, 
which we know, and there are criminal networks in every 
country, but we now know that the drug cartel networks have 
been with this $6-$9 billion that we send--are sending the 
criminal elements in Mexico every year with our purchases of 
drugs, that we do know that there are--that criminal web, you 
might say, or organization exists.
    We also know that there are terrorists who are 
ideologically driven to hate the West, and especially hate the 
United States and hate our way of life. And so what we have are 
two elements now that we seem to be seeing as being in some way 
intertwined in their activity to be mutually reinforcing. Let 
us just note where the international or the foreign government 
connection comes into is this and should not be missed.
    The terrorist element that now is intertwined with criminal 
networks, those terrorists have been given--from day one have 
been given support from governments that find them--that are 
headed by people who share their hatred of the West, and of the 
United States.
    So if you have a government that hates the United States, 
it would not be any way inconsistent for the heads of that 
government to permit terrorists and actually provide terrorists 
with not only a safe haven but a means of support, a place to 
come and a safe haven, and there is indication, as we know--and 
I will ask the witnesses to comment on this after--on the 
second round--that terrorists have been given safe haven, and 
criminals have been given safe haven, in Venezuela. And we know 
that.
    There is--and our witnesses may want to comment on that. 
And if these same terrorists are tied into an international 
criminal ring, there is where you have this connection, and it 
is very consistent.
    We had in Cuba for years--certain criminals were permitted 
to escape from the United States and given safe haven in Cuba. 
And I remember there was a fellow from the United States who 
actually was a guy who bilked a lot of people out of his money, 
he ended up in Cuba for 20 years. And his name will come to me 
by the end of this hearing--Robert Vesco, there you go.
    So here you had Robert Vesco, a recognized international 
criminal, who was given safe haven in Cuba, very openly over 
those--well, how about all of the other criminals that we don't 
know their name? Robert Vesco comes to mind, but what about all 
of those people at the next level who make their money by 
kidnapping people?
    And maybe Robert Vesco stole about a couple hundred million 
dollars. He is at--maybe we know about him, but what do we--if 
they are willing to take the Robert Vescos in, who spent, I 
might add, an enormous amount of time while in Cuba becoming an 
in-between to the drug cartels and various networks, what about 
the other people there? Are the Robert Vescos involved? Are 
they the English speakers that Eduardo is talking about who 
threw him into a tiny box and almost destroyed his life? And 
who would do him harming now if they could get to him?
    So we have this--what I guess we call--we have the evil--
axis of evil as the Judge--maybe we should call it the evil web 
or the evil network that now is operating in our hemisphere, as 
close to us as Mexico. And if we don't do anything about this, 
we can--I am--let me just note, there is no doubt that it will 
start spreading across the border.
    And what happened yesterday indicates that the type of 
violence that we have been predicting would spread across our 
border is on the way, and we need to go and start focusing on 
this and doing something about it before it starts doing 
something about us as individuals.
    Mr. Carnahan, you may proceed, and you have got as much 
time as you would like.
    Mr. Carnahan. Thank you, Mr. Chairman. And thank all of you 
again. I am not going to be able to stay for the second round, 
so I am going to try to get in three areas to cover. First, for 
the Valsecas, thank you for being here and sharing your 
incredible story and for being forthright. I think it is really 
helpful.
    You mentioned talking to another victim and some of the 
similar patterns. Have you, or do you know of anyone else who 
has really analyzed these kidnappers for--is there a similar 
pattern there in terms of what they do, how they do it, that 
could be helpful in really targeting how we deal with that?
    Ms. Valseca. I have a copy of a PowerPoint presentation 
that was shown to me within days of Eduardo's kidnapping. It 
was shown to me by Mexican Federal authorities, and I do have a 
copy of that, and I could provide it to American authorities, 
whoever needs to see that. And it has names, pictures, an 
outline of all the--of all of the documented previous victims, 
not--it doesn't include all of them, because so many of those 
people many years ago didn't even report these cases to the 
authorities. But I can provide all of that, yes.
    Mr. Carnahan. If you could----
    Ms. Valseca. And there is a very, very well documented MO.
    Mr. Carnahan. Thank you. If you could--if you want to 
provide that to the committee, I think that would be a great 
addition to the record for this hearing. Thank you.
    Secondly, we have a very active group back home where I am 
from. It is the St. Louis Interfaith Community on Latin 
America. They have been--they had submitted a question for the 
hearing today about the Merida Initiative and wondering what is 
the return on that U.S. investment, given the rise in violence, 
the increase in cartels, the continuing drug trafficking 
problems? I would ask the other three witnesses to just give me 
their quick take on that. Mr. Farah?
    Mr. Farah. Thank you. I think the Merida Initiative is 
badly needed. I think--I don't deal so much directly with 
Mexico, as Andrew and others do. I think the biggest failing, 
in my mind, is the incredible lack of resources allocated to 
Central America, which is allowing the entire back door of 
Mexico to stay open.
    When you look at the territorial control of the Zetas in 
Guatemala, more than 40 percent of the Guatemala national 
territory is now under Zeta control. Sinaloa cartel's deep 
roots in Honduras, the ongoing struggle and the money 
laundering activities in El Salvador, they are facing, as you 
squeeze Mexico a little bit on our side, the rest of the stuff 
is just flooding into Central America.
    So I would say in the Merida Initiative the biggest 
weakness to me, outside of what specifically goes to Mexico, is 
the non-factoring in of the balloon effect, which we know so 
well, and this stuff rolling south in ways that are utterly, 
utterly destroying Central America, in ways that are very hard 
to describe.
    Mr. Carnahan. Thank you. Mr. Farnsworth?
    Mr. Farnsworth. Thank you, sir. No, I completely agree. I 
think Merida Initiative is a good initiative. It is solid. If 
anything, it was conceived to be a national initiative for 
Mexico instead of the regional initiative that Doug is talking 
about. Central America has been added to that secondly, but 
probably should have been part of the initial package that may 
have also needed to include some of the Andean region as well.
    The second thing is there have been reports that some of 
the assistance promised under Merida have been delayed in 
arriving, whether it is equipment or other things. But I think 
the successes are real in that intelligence cooperation has 
dramatically improved, training has occurred, for the Mexican 
authorities, necessary and important work. And I think we saw, 
again, some of the results of that yesterday, fortunately. That 
is not to say that it is a perfect program. It is not. But I 
think it is a very timely and important initiative.
    Mr. Carnahan. Okay. Dr. Selee?
    Mr. Selee. Always good to hear from old friends in St. 
Louis. Actually, I know some of the people involved there. It 
is--I would agree with what they have both said, which is I 
think Merida has been very, very important in stimulating 
particularly bilateral cooperation between the U.S. and Mexico.
    It has been absolutely fundamental in getting us to share 
intelligence, getting us to talk about shared responsibility 
for the first time seriously and consistently, and to recognize 
that this is as much our issue as Mexico's. And this is our 
money. It is their weak rule of law, right? I mean, this is 
really a coming together of our appetite for illegal narcotics 
with Mexico's really weak institutions.
    Merida is really just starting to flow. I mean, the money 
is really just starting to flow. The most important part of 
Merida, as far as I am concerned, is whatever we can do--in 
terms of the funding part of it, what we can do to help Mexico 
build their institutions for the long term, the court systems, 
and they have some really good court reforms going on.
    But we need to nurture those, together with the Mexican 
Government, and we can't do it. We can help the Mexican 
Government do it, help some of the Mexican states, police 
reform, prosecutorial reform, creation of intelligence 
databases, like the one on the police. I think those are 
critical, building the institutional structure in Mexico.
    Mr. Carnahan. And my third area I wanted to follow up with 
you, Dr. Selee, the fourth item of your challenges, you 
mentioned curbing demand of narcotics in the U.S. I mean, that 
number, that $6-$9 billion number is really staggering. Can you 
address some of those initiatives? Has anyone done--who do you 
think has done the best work in terms of evaluating and 
focusing on what that should look like?
    Mr. Selee. Some of the people worth looking at--the people 
that were involved in the study, Peter Reuter, Jon Caulkins, 
Mark Kleiman, who was not involved int eh study, but Mark 
Kleiman has done some very good work, and he is the----
    Mr. Carnahan. You are talking about the Rand study.
    Mr. Selee. The Rand study, yes, exactly. Kleiman wasn't--
Reuter and Caulkins were involved in the Rand study, with a 
couple of other folks. I don't Kleiman was. But they have all 
done similar work together on looking at what is effective in 
terms of drug policy. And I think recognizing--I mean, 
realistically, we are not going to get rid of drug addiction in 
this country.
    I mean, unfortunately, it is--there are some real limits to 
this. But in terms of what drives the drug trade in Latin 
America, and in Mexico, and drives the violence, and in terms 
of the worst health issues in the United States, there is a set 
of chronic users of hard drugs who spend--who are actually most 
of that $6-$9 billion.
    We are talking about half of the profits of the Mexican 
cartels are probably cocaine, from what they have discovered 
from the Rand study. About 20 or 25 percent is marijuana, and 
25-30 percent is methamphetamines and heroin.
    Of the hard drugs, the sort of shorthand that they tend to 
use is that 80 percent of the profits are generated by 20 
percent of the users. You know, you have to look at some of the 
more--I am not a drug policy specialist, so I can't, you know, 
guarantee that is exactly right. But it is sort of a shorthand 
there.
    I mean, we are talking about 20 percent of the people who 
use hard drugs drive most of this trade. Most of these folks 
are in the criminal justice system. And so there is some 
thinking of things like Project Hope in Hawaii, which takes 
people who are already in the criminal justice system--I am 
sure the Judge and Congressman Poe knows this well--it takes 
people who are already under judicial supervision and gives 
them incentives to stay off narcotics.
    Instead of sort of sending them back to jail, it does sort 
of short-term--you know, immediate short-term reactions if they 
aren't clean. And those kind of things give people an ability 
to get off drugs. About 90 percent of the people who actually 
get off drugs don't go through rehabilitation. People who are 
addicts actually get clean on their own. And so creating 
incentives in the criminal justice system for people who have 
been hooked for a while doesn't always work, but it has a much 
higher success rate than other things we have done.
    And there are things in prevention we can do as well. 
Montana has done some things on meth prevention that seem to be 
fairly successful. So there are models out there. It is worth 
looking at them.
    Mr. Carnahan. Thank you.
    Mr. Rohrabacher. Thank you very much, Mr. Carnahan. Let us 
just note that it may or may not have been the drug cartels 
that kidnapped Eduardo. They may well have had nothing to do 
with narcotics or----
    Mr. Carnahan. I think they didn't, right?
    Mr. Rohrabacher. Right. So it is a--what you are talking 
about, it is all interrelated, but even if we eliminated that 
there might be an increase in kidnapping, because these are 
evil--there are evil people in the world, and what we are 
talking about today are evil human beings and how they use 
their activity.
    And one guy who has dealt with evil human beings all of his 
life--[laughter]--trying to thwart them is the good judge from 
Texas. Judge Poe, you may proceed.
    Judge Poe. That is right, Mr. Chairman. I feel like Luke 
Skywalker sometimes fighting the forces of evil. But thank you 
for being here.
    Eduardo, you are a man to be admired. I have here the 
Washington Post article and your photograph and how you 
suffered through this. You are a remarkable man, and you have 
married, obviously, a remarkable woman. And I thank you both 
for coming forward and talking about this dastardly deed.
    Mr. Chairman, I would like unanimous consent to submit the 
Washington Post article of August 2009 into the record.
    Mr. Rohrabacher. Without objection.
    Judge Poe. I want to just ask you all a few questions. This 
happened in Mexico. Is the same group operating in the United 
States and kidnapping in the United States and taking folks to 
Mexico? Jayne?
    Ms. Valseca. I don't have any information in that regard. I 
don't think so, although, of course, it can't be disregarded 
that it is suspected that there are American members of this 
group. But it also is worth noting that in the case of the 
former Mexican senator and Presidential candidate Diego 
Fernandez de Cevallos, it is a perfect match as far as the MO 
goes.
    It is highly suspected, even at the highest level in the 
Mexican national authorities, that this was committed yet again 
by the same group that had Eduardo. And in a communication to 
the press, following his release after the kidnapping, they 
have now started calling themselves the Network for Global 
Transformation.
    Judge Poe. There are anecdotal instances that I have heard 
from local sheriffs on the Texas border of Mexican nationals 
living in the United States being kidnapped and taken back to 
Mexico for ransom. And then, of course, extortion rings, the 
same thing--Mexican nationals or Americans of Hispanic descent 
in the U.S. being extorted for money with the--if they don't 
pay, then they--some relative in Mexico is going to be harmed.
    I am starting to hear sporadic comments by local law 
enforcement that that is occurring. Like all crimes like this, 
people who are threatened and the victims do not cooperate with 
law--they don't want to report it, because they are afraid of 
their own lives.
    I will talk about the ultimate result of all of this is 
that drugs come to the United States. The United States has a 
demand. I think there was a study yesterday that said that 9 
percent of Americans are chemically dependent, so much so that 
they are not hirable, they can't get a job because they are 
chemically dependent.
    If that is true, 10 percent of the United States is 
dependent on some chemical, and makes them non-productive, that 
is a tragedy. On the long range, we, as a society, must make a 
social change about our addiction to chemicals, whatever they 
are, because there is a demand, so there is a source.
    Let me ask this question, Mr. Farnsworth. Do you think, 
just kind of yes or no, should we look to the drug cartels, 
like the Zetas, and label them a foreign terrorist 
organization? And then deal with them that way with more laws 
that we have that are available, or should we just not do that 
yet?
    Mr. Farnsworth. I would say not yet. I would like to see 
more evidence that they are actually linked up. What happened 
yesterday is not an encouraging sign in that regard. So, but as 
of now, I think that they remain guns for hire, without much of 
a political agenda. And I agree with your earlier comments that 
they are really in it for the money, and whether that is 
kidnapping, people trafficking, drug trafficking, other bad 
things, they are doing it primarily for the money, not for 
political change, as far as I see them.
    Judge Poe. The situation with the Iranian Government 
operative, that is my opinion, and the Zeta cartel, which 
they--obviously was not, thank goodness. Is that a link--
foreign terrorist organizations, whether it is Hezbollah or 
whoever, working through Mexican drug cartels to do harm in the 
United States, is that something that we are going to see, or 
we have been seeing more of? This is just one incident that was 
captured?
    Mr. Farnsworth. It is certainly something that we have to 
watch very, very closely. I completely agree with that. And I 
guess it is too early to know if this is a one-off or if it is 
a pattern.
    Judge Poe. One other thing since my time has expired. When 
I was in Colombia, it was interesting that the Colombians blame 
a lot of their problems not on the United States but on Mexico, 
and the Mexican lack of law enforcement. The Mexican drug 
cartels are now going to Colombia, and they are competitors 
with the local drug dealers. They had some pretty harsh words 
for the nation of Mexico.
    Last question, and I am going to ask you questions later at 
another subcommittee, Mr. Farah, so--just so you know, because 
I value your expertise. Give me a--when we talk about Mexico, 
what is the state of the state of Mexico? We hear everything 
that it is a failed state to ``Ah, it is a tourist's 
paradise.'' You know, we hear all of that in between. What is 
your opinion, Mr. Farnsworth? I am going to ask you, Doctor.
    Mr. Farnsworth. Well, thank you, sir. I think the state of 
Mexico is a democracy that remains in transition. It certainly 
has some problems, and the drug issues I would put front and 
center. But it is a healthy democracy. It is a country with 
economic growth that is creating jobs, so I wouldn't agree with 
either extreme, that it is a paradise for tourists or that it 
is a failed state. I would say that the truth lies in between, 
and I would say that it is evolving.
    The government I think is doing relatively well under some 
very, very difficult circumstances, not to say, again, that the 
government is perfect or has done everything perfectly right. 
But I do think that under some very trying circumstances they 
have done relatively well.
    I do think, however, that this new element that was 
introduced yesterday is potentially worrisome, and that would 
change the dynamic somewhat to certainly if this were proven to 
be more than just a one-time occurrence, and I think that is 
something that we have to watch very closely.
    Judge Poe. Just to follow up before I let Dr. Selee answer 
this question, do you agree or is your opinion that the Mexican 
Government helped cooperate, to some extent, in thwarting this 
plot? Mr. Farnsworth?
    Mr. Farnsworth. Yes, I do.
    Judge Poe. Okay.
    Mr. Farnsworth. Yes.
    Mr. Selee. You know, I actually agree with what Mr. 
Farnsworth says. I mean, I think Mexico is a country that has 
gone through a democratic transition over the past 10 years, 
10, 12 years. It is trying to build a rule of law. It is hard 
to do when you have organized crime groups with billions of 
dollars at their disposal, trying to subvert that.
    And I think this is, you know, where Mexico is today, 
trying to become a modern, successful, prosperous democracy. In 
some ways it is moving ahead as we become more of a middle 
class society than it ever has, which is good. There is some 
growth there. It has become a manufacturing economy. There are 
some things--the Supreme Court has become relevant. I mean, 
there are some good things you can talk about, but at the same 
time, when you get down to the local level, there is a real 
attempt to subvert rule of law. And it is hard in places where 
organized crime wants to operate to get around that.
    If you look at the overall crime rate, you know, Mexico has 
much less--has a much lower homicide rate than Brazil does, 
much lower than Colombia does, about half of Brazil actually, 
maybe a little bit--maybe it is not quite that anymore, but it 
is at least--it is not--Brazil not double, at least it is very 
close to that, one and a half times higher homicide rate. We 
don't think of Brazil as a failed state.
    That said, if you go to Acapulco, Ciudad Juarez, Monterrey, 
right now, which are all major cities in Mexico--Acapulco, a 
tourist destination; Monterrey, the industrial capital of 
Mexico; Ciudad Juarez, a major city on the border--the homicide 
rate is incredibly high, right? And it has been very hard to 
control this.
    There have been some successes. Tijuana, nearby San Diego, 
is actually doing better than it has done in years. They were 
able to get the organized crime rings under control, so there 
are some successes here. Juarez has actually gotten marginally 
better as well. I mean, at least homicides are down. It is less 
open. It is less in the street. Individual civilians seem less 
at risk than they were a couple of years ago, though it is 
still bad.
    But there are some places that are still, you know, among 
the worst in the world, and that is--that tells you there is an 
inability to completely enforce the rule of law in a way that 
citizens expect.
    Judge Poe. Thank you. Thank you, Mr. Chairman.
    Mr. Rohrabacher. I will give the other two witnesses a 
chance to answer that last question, Mr. Farah, and then 
Eduardo.
    Mr. Farah. Well, I think that Mexico is exactly in 
transition. I think that you see these huge spikes in specific 
areas, because I think what we often don't understand is how 
important geographic control is to narcotics trafficking 
organizations or transnational organized crime. They need 
specific roots and specific places in order to move their 
product.
    And one of the things I think that I have been looking at a 
lot in my research, both for the U.S. Government and privately, 
is that what you are seeing increasingly--and the Zetas I think 
are a perfect example of this--is more and more you see the 
same--or different criminal organizations and terrorist 
organizations using the same pipelines to move products.
    If you want to move 30 illegal Chinese across Venezuela 
into Mexico, or 30 AK-47s or 30 kilos of cocaine, you pass the 
same checkpoints, the same choke points along the way. So you 
are operating with the same small group of people who control 
that transnational pipeline.
    And I would also like to say just briefly on the kidnapping 
issue--you know this well--if you look at what happened right 
after the Central American wars, what did both the unrepentant, 
unregenerate far right and the Communist Party and other groups 
do immediately? They went into kidnapping.
    They would train in kidnapping. They went to the ETA for 
training, as these groups have done. And the premier group for 
sponsoring this type of kidnapping now across the region are 
all tied to the FARC, and I think that that is one of the 
incredible misunderstandings or lack of understandings we have 
about the FARC is the Colombian Government has done better in 
pushing them to the margins of Colombian political life.
    They retain an incredibly vibrant transnational 
organization and front group structure. It goes to Mexico, 
Venezuela, Brazil, many other places, and those groups are 
trained specifically in how to kidnap, how to negotiate, and 
how to raise--and this group that you are talking about, the 
global transformation, directly tied to the FARC.
    Mr. Rohrabacher. So you are suggesting that this kidnapping 
cartel, for lack of a better description, is not tied to the 
drug cartel in the sense that they may have different roots.
    And, in fact, when you think about it, it is a totally 
different type of a criminal activity in the same way that 
there is a different profession in the legal professions, too, 
where you have to have different expertise to kidnap people and 
to extort money from their family as compared to transporting 
drugs and selling it and then getting the money laundered.
    Mr. Farah. It is a specialization, without a doubt.
    Mr. Rohrabacher. It is a specialization.
    Mr. Farah. And the FARC, and particularly the Communist 
Party, the remnants of the Communist Party in El Salvador, 
remnants of the Sandinista government, or what was the hardline 
Sandinista that never demobilized, as well as factors on the 
far right that maintain exactly the same structures they did 
during the war, are masters at that. And I think it--the 
effects are being felt across Latin America in ways that we 
often find incomprehensible, but they are not that hard to 
understand.
    Mr. Rohrabacher. Well, that is fascinating. And, Eduardo, 
did you have a comment for Judge Poe's last question?
    Mr. Valseca. Thank you, Mr. Chairman. I just want to share 
that the comment about Tijuana is doing better was a very good 
article just 2 or 3 days ago in The Washington Post. And one of 
the most important reasons Tijuana is doing better is because 
they have a lot of American enforce helping them to grab these 
guys.
    I think that the Mexicans alone, they are not capable of 
doing--they don't have the manpower. They don't have the will 
of doing it. The corruption is tremendous. And it is thanks to 
the enforcement of the United States right on the border, and 
they were really suffering because they were not making any 
money anymore. These people were going somewhere else. And 
thanks to the authorities of the United States, that is a good 
proof why we need so much the support of the United States. 
This is the only way that we can do better is by sharing that.
    And another thing I want to share with you is that my son 
lives in California, my older son, that you met, and he went to 
Mexico. He is in the film industry, and he was taking a film 
about, you know, what happens in Mexico with most--we have 7 
million people in Mexico in poverty, and they come to the 
United States like a dream to come across illegal and get a job 
here, of cutting people's grass or whatever.
    And he came filming this guy--the real person that is 
leaving his family and coming to the United States, saying bye 
to his mother and all of--the whole thing. The incredible part 
was--and he shared with me--when he came to Laredo, crossed 
into Texas, it is totally controlled by Zetas.
    And when I asked him, ``Where is the police?'' he laughed 
at me. He says, ``That is the business of the police.'' There 
are like a hundred Zetas with machine guns and with very good 
pistols, brand new, and a very sophisticated way of 
communicating, and $300 apiece, I mean, each illegal Mexican 
who comes across. And he said there are thousands of illegals 
coming across.
    Each one of them have to give $300 or they won't come 
across. If you try to play smart, they kill you right there. 
And the police knows about this thing is going on, and they 
control certain areas of the border. They know about it; they 
don't do a thing about it. So that is what I want to share with 
you.
    Thank you, Mr. Chairman.
    Mr. Rohrabacher. All right. Thank you. And we have been 
joined by Congressman Rivera, which you may proceed with your 
line of questioning. Then, we will have one more round of 
questions after Congressman Rivera's.
    Mr. Rivera. Thank you very much. I am sure we have 
exhausted the topic throughout the hearing, but there is just 
one item that I would like to try to focus in one if--and if 
you could provide some insight into someone called El Chapo 
Guzman. Mr. Selee, can you tell us, who is El Chapo Guzman?
    Mr. Selee. He is the reputed leader of the Sinaloa cartel, 
the largest drug trafficking organization in Mexico.
    Mr. Rivera. What is it called?
    Mr. Selee. The Sinaloa cartel.
    Mr. Rivera. And that is the largest in Mexico.
    Mr. Selee. Yes.
    Mr. Rivera. And do we know----
    Mr. Selee. I think certainly.
    Mr. Rivera [continuing]. His whereabouts or his latest 
activities?
    Mr. Selee. I mean, media reports put him in Durango, in the 
state of Durango, in northern Mexico. But to be honest, I don't 
have any intelligence myself on that. I mean, that is what you 
hear from people who follow this in Mexico, from good 
reporters. He is in a rural area of Durango. But, again, I 
can't--you know, I have no independent confirmation of this.
    Mr. Rivera. And media reports as to also relatives of his, 
his son, for example, and presence in Bolivia, have you heard 
of any connection between Bolivia and El Chapo Guzman's drug 
cartel?
    Mr. Selee. I have not, to be honest, but obviously these 
are transnational networks. I am sure they do have 
relationships in Bolivia and Peru and Colombia and Ecuador and 
elsewhere, you know, as well as in Central America----
    Mr. Rivera. Mr. Farah?
    Mr. Selee [continuing]. As well as throughout the U.S.
    Mr. Farah. I spent a great deal of time working on Bolivia, 
and I think it is--El Chapo Guzman's son actually crashed an 
aircraft there. So, and according to internal intelligence 
reports, there is--I think that he has been there. They have a 
fairly robust structure. I don't know if he is still there. I 
don't think he is a permanent fixture there. I think he moves 
around a lot. But I think that given their transnational spread 
that they have--they are--he maintains operational control in 
the southern----
    Mr. Rivera. And you said his son crashed an aircraft in 
Bolivia. When was that?
    Mr. Farah. I would have to go back and look. I think 2009, 
2010. It was fairly relatively recently.
    Mr. Rivera. So a few years ago. That aircraft--he survived 
the crash, I assume.
    Mr. Farah. All I have seen is a brief intelligence report 
that said he crashed it, and I assume he survived, yes. It 
didn't say he perished in it.
    Mr. Rivera. Because I had also heard that previous to that 
crash that he was taking flight lessons. That is where he was 
learning to fly was in Bolivia. What do we--do we know of any 
cooperation between members of the Bolivian Government and drug 
cartels narco trafficking?
    Mr. Farah. I think the case of General Sanabria, who was 
just convicted in a Miami court and sentenced to 14 years, the 
former head of the Counter Narcotics Police, is clear evidence. 
I think if you look at the structure that he ran inside the 
Bolivian Government, it goes up very high.
    I think if you look at the internal reporting that went on 
between members of the Bolivian law enforcement community and 
their superiors, including ministers in the cabinet where they 
warned that these things were happening and were ignored, I 
think that there is ample evidence that very senior levels of 
the Bolivian Government are deeply involved, at least 
protecting drug trafficking, if not sponsoring it.
    Mr. Rivera. And any other--this conviction, did the 
conviction have--do you know if the conviction had anything to 
do with the relationship between his activities in the Bolivian 
Government and Mexican drug cartels?
    Mr. Farah. In this particular case, what he was tried for 
was not that. It was a shipment that went out through Chile to 
Panama and then to Miami where he talks explicitly about the 
support he is receiving from the Bolivian Government and his 
ability to move large sums for specific amounts of money, or 
large amounts of cocaine for specific amounts of money. In that 
particular case, I am not aware of any tie to Mexico.
    Mr. Rivera. Okay. Thank you very much, Mr. Chairman.
    Mr. Rohrabacher. I am going to ask a couple more questions, 
or at least have a bit of discussion here, and then we will 
close up hopefully before noon.
    So today what we have heard is that there seems to be 
networks that seem to be meshing, evil networks that seem to be 
meshing into something that is turning into a nightmare for 
honest people, not only in Mexico but could well turn into a 
nightmare for the people of the United States as well. 
Underscoring that was yesterday's revelation that a foreign 
government, terrorist government, was attempting to utilize--
hire a drug cartel gangsters to commit an assassination here in 
the United States.
    If that sort of thing becomes prevalent, we could face the 
same enormous challenge--and other countries--where honest 
judges are murdered, where honest generals are murdered, where 
honest police officers are murdered, and others are corrupted. 
And we have to put ourselves in the position of these people. 
People do not understand that if someone comes up to you in 
Mexico and says, ``We will give you $50,000 a month, or we are 
going to kill your family, you make the choice,'' how difficult 
a decision that would be for even an honest person to do that. 
That is the type of incredible pressure that is going on.
    We need to recognize that this meshing of the networks 
between a criminal network and a terrorist network may well be 
happening. Mr. Farah's observation that the type of kidnapping, 
international kidnapping, that--how this perhaps relates 
actually to the modus operandi of terrorist and ideological 
groups, based on the Marxist philosophy anyway, more than fits 
just simply what the drug cartels are doing. That was very 
insightful and something that should help members of this 
committee in how we judge what is going on.
    Mr. Selee, let me just note about your observations about 
drug use and the resources that are available. I personally 
don't believe that we should be putting people in jail in the 
United States for consuming whatever substance they want to 
consume. I think it is a waste of our money, when there are 
other people in the United States who are being victimized by 
rapists, murderers, et cetera. We need a criminal justice to 
focus on them.
    But with that, then there is some argument that even if you 
just do that that would bring the price of drugs down, if 
people were now no longer facing these criminal penalties, et 
cetera. However, I don't necessarily buy that part of the 
argument, and I would suggest that there are other ways of 
dealing with the drug problem that we have not tried.
    And, for example, we--I would think that drug testing is 
something that we played around with for a while, and they 
never, as a society, decided that drug testing was the way to 
go. And it seems to me that as long as we are testing people 
for drugs, but not for a criminal penalty, meaning that they 
are discovered--if you have drug testing within certain 
professions, and you discover someone who is involved with 
drugs, that is legal to do that, because it is not self-
incrimination, unless you plan to prosecute that person for 
using those drugs.
    But certainly drug testing, if we discover people are using 
drugs, we can put impediments in the way of people. For 
example, young people who would like to get driver's licenses 
should have to test, maybe in their gym classes in high school, 
before they can get a driver's license. Not to put them in 
jail, but to make sure they don't get their driver's license. 
That may deter the use of drugs dramatically among young 
people.
    For example, drug testing should be required of airline 
pilots, truck drivers, cab drivers, et cetera, et cetera, 
because drugs do affect people's ability to do their job. And 
in their job, if there is a life--people's lives are at stake 
by their job, they should be drug tested.
    But, furthermore, perhaps if someone is, you might say, 
dining at the public largesse, meaning receiving government 
stipends of some kind, whether they are--whether it is 
scholarships or whatever they are, or welfare payments, that 
perhaps drug testing should be required before someone receives 
government largesse.
    If we indeed have that kind of commitment, frankly, I think 
that would be a great deterrent than our current system of 
simply locking--trying to lock people up.
    Mr. Selee. Can I just clarify something, Mr. Chairman?
    Mr. Rohrabacher. Yes.
    Mr. Selee. I completely agree with you, actually. I would 
not suggest locking more people up. In fact, I think we lock up 
too many people for consumption, which makes no sense. And I 
don't think I explained myself well. I mean, I am not saying we 
should lock up more people. There is a high correlation between 
people who have addictions to hard drugs who are already in the 
criminal justice system, often for other sorts of crimes, not 
only drug-related crimes, but often for robbery and other 
things.
    Mr. Rohrabacher. Right.
    Mr. Selee. In terms of probation, what Project Hope does 
and other experiments like this, South Dakota does this 
actually on drunk driving, interestingly enough, with people 
who are on probation, make sure they stay clean as long as they 
are in the system. And they actually have a very high success 
rate in getting people to stay clean, creating the incentives 
to help them get off drugs, so they don't commit crimes again 
and they stop using heavy drugs.
    Mr. Rohrabacher. Yes, I would----
    Mr. Selee. If we can focus on that population, 
surprisingly, that is already in the criminal justice system, 
surprisingly, we can be fairly effective at getting rid of a 
large set of consumers of----
    Mr. Rohrabacher. And if we are talking about $6-$9 billion 
going into the hands of criminal elements, that is an 
overwhelming challenge for a country like Mexico, and even an 
overwhelming challenge for people in the United States I might 
add.
    So I think we have covered some really--some good ground 
here, and let me--before I finish up, one last question or two, 
but, Congressman Rivera, do you have anything else? I found 
Congressman Rivera's focus on Bolivia interesting. And would 
someone like to comment on that? Because we focused so much on 
Mexico, and Bolivia and Venezuela and Cuba are national 
entities that we need to--obviously need to pay attention to as 
well. Mr. Farnsworth?
    Mr. Farnsworth. Thank you, Mr. Chairman. And I do want to 
congratulate you for this hearing and the timeliness of it, but 
also for bringing the human dimension, the human element into 
these discussions--very important.
    I think it highlights the fact that the narcotics trade is 
truly regionwide, and that strategies to address it really have 
to be conceived in that type of manner. And if we break them 
down to a bilateral issue or even a subregional issue, we find, 
as we did when we focused on Mexico with Merida, that it is 
like a balloon. You push on one side and it bubbles out 
somewhere else, and that is what is happening in Central 
America.
    It doesn't help in the Bolivia context, for example, 
however, that the government has kicked out the DEA and has 
intentionally tried to change the relationship with the United 
States in the way that, frankly, is against some U.S. 
interests, I would argue, in trying to address some of these 
very difficult issues.
    So it does go to the point that when there are governments 
in the region that are cooperative with us and we can be 
cooperative with them, it lends to a much greater level of 
success, as we have seen in Colombia, as we have seen with 
Peru, as we have seen with some of our other friends and allies 
in the region.
    And when there are leaders who may democratically elected, 
and may be serving at the behest of their people, who 
nonetheless take a different view on these issues, whether it 
is through production of some of these substances or serving as 
safe havens or transit points, or what have you, it 
immeasurably complicates these issues.
    So I think that points out a very important aspect, and I 
am glad you raised the question. Thank you for allowing me to 
address it.
    Mr. Rohrabacher. Okay. And let us note, again, we--this 
hearing was meant to focus on foreign governments' influence on 
these issues. A foreign government can--their involvement means 
a lot. I mean, for example, if a foreign government simply 
gives safe haven, let us suggest that Eduardo believes that 
perhaps the people who kidnapped him were Americans, you know, 
from the United States, but the chances of those Americans 
actually operating in Venezuela rather than in the United 
States may be very high.
    If in Venezuela they determine that their job is to bring 
down--that the government feels some sort of kinship with those 
who would bring down the Mexican Government and replace it with 
a radical left wing government, they would then provide a safe 
haven.
    When I mentioned Robert Vesco--and thank you for reminding 
me what his name was--Rivera knew what that--knew Robert Vesco 
very well. But Robert Vesco was given safe haven for decades in 
Cuba--decades--and he was deeply involved, we now know, in 
helping the international drug cartels and was actually--I 
remember there was some intercept that suggested that there was 
a dispute and he was going to become the arbiter of the 
dispute, which shows you his deep involvement.
    And why did Fidel Castro permit a guy like Robert Vesco, 
right? Money and Fidel Castro thinks this is a good way to 
bring down the United States, so it couples his financial 
interest with his ideology. And I think that--so as we close 
today, we are talking about and this seems to be revealing, you 
might say, a network, an evil network, and an evil meshing of 
two different groups.
    And between the terrorists and the drug cartel, and what 
goes along with that, that meshing is a national government's--
other government's involvement, because of their ideological 
desire as well as their desire for money. So I think we have 
reached the point where there--we have demonstrated that there 
is a correlation between these factors and why there is a 
correlation between these factors.
    We will perhaps have another hearing on this issue in the 
near future, and I think that it is worth us to document what 
is going on in Bolivia and what is going on in Cuba, what is 
going on in Venezuela, that will lead to the horrible crime 
that was committed against this family and how this family 
represents thousands, if not hundreds of thousands, of other 
families who have been victimized by this criminal element that 
is now part of, as we say, an evil meshing and an evil network 
that threatens the--eventually will threaten the United States.
    So thank you all very much. This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

 <F-dash>\<n-iden-3><pound><box><ellipse><F-dash><func.-of><Register>\

     Article submitted for the record by the Honorable Ted Poe, a 
           Representative in Congress from the State of Texas
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
